No.

IN THE
SUPREME COURT OF THE UNITED STATES

ll»fl/nS — PETITIONER

1
(Your Name)

VS.

.SWh?

lJ-f<ah

— RESPONDENT(S)

PROOF OF SERVICE
do swear or declare that on this date,
Dec +
20 2.0 ; as required by Supreme Court Rule 29 I have
served the enclosed MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
and PETITION FOR A WRIT OF CERTIORARI on each party to the above proceeding
or that party’s counsel, and on every other person required to be served, by depositing
an envelope containing the above documents in the United States mail properly addressed
to each of them and with first-class postage prepaid, or by delivery to a third-party
commercial carrier for delivery within 3 calendar days.
I,

The names and addresses of those served are as follows:

I declare under penalty of perjury that the foregoing is true and correct.
Executed on
State of
County
Onthis'2^7 day of

0J2J>^

DiZ-c fUj.

,203d?

. in the year of 90 r2^

before me, ^
Cu, „ S\
personally appeared
proved to me on the basis of satisfactory evidence to be
the person whose name is signed on the preceding or
attached documents in my presence.

(Signature)
notary/pubuc

32

JENNIFER LUND
713472
MY COMMISSION EXPIRES
AUGUST 07,2024
STATE OF UTAH

X

